CERTIFICATE OF SERVICE
NO. TBD
Chrimar Systems, Inc.
Petitioner(s)
v.
Juniper Networks, Inc. et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CHRIMAR
SYSTEMS, INC. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Jonathan S. Kagan
Irell & Manella LLP
1800 Avenue of the Stars, Suite 900
Los Angeles, CA 90067-4276
(310) 277-1010
jkagan@irell.com
Counsel for Juniper Networks, Inc.

Matthew S. Yungwirth
Duane Morris LLP
1075 Peachtree Street NE, Suite 2000
Atlanta, GA 30309
(404) 253-6900
msyungwirth@duanemorris.com
Counsel for Ruckus Wireless, Inc. and Netgear, Inc.

Lucas DeDeus

December 18, 2019

SCP Tracking: Angileri-1000 Town Center-Cover White

